OIG Investigative Reports, Two LSU Students Sentenced for Financial Aid Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States U.S. Attorney's Office
Eastern District of Louisiana
500 Poydras St
Suite 210-B
New Orleans,
Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
TWO LSU STUDENTS SENTENCED FOR FINANCIAL AID FRAUD
October 8, 2009
ANTHONY JUAN WALKER, age 27 , a resident of Tarrytown, New York and OBIALUNAMMA AGUBUZU, age 25, a resident of Jefferson Parish, Louisiana, were each sentenced by U.S. District Court Judge Carl J. Barbier, to five (5) months probation for one count of financial aid fraud, announced U. S. Attorney, Jim Letten.. Both were was ordered to pay restitution to the Department of Education; WALKER in the amount of $40,072 and AGUBUZU in the amount of $35,572.
According to court records, AGUBUZU pled guilty on June 10, 2009 and WALKER pled guilty on July 8, 2009 to one count of financial aid fraud for submitting false information to obtain admission to LSU School of Dentistry. WALKER and AGUBUZU submitted fraudulent college transcripts from Cornell University and fraudulent Dental Admission Test results to the L.S.U. Health Science Center New Orleans Dental School. The forged transcripts claimed the defendants had taken the pre-requisite science courses for Dental School Admission when in fact they had not. The forged transcripts also inflated the defendants' grade point average. AGUBUZU never took the Dental School Admission Test administered by the American Dental Association and WALKER submitted test scores that were greatly embellished. As a result of submitting false information, defendants obtained admission to LSU School of Dentistry and applied for and received federally subsidized financial aid. WALKER received $40,072 and AGUBUZU received $35,572 in loans under the Federal Family Education Loan Program.
The case was investigated by U. S. Department of Education and Federal Bureau of Investigation. The prosecution was handled by Assistant U. S. Attorney Julia K. Evans.
Top
Printable view
Last Modified: 10/19/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov